No. 20-7252

In the Supreme Court of the United States
JOHN RAYMOND TRAVIS, Petitioner,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF SERVICE BY ELECTRONIC MAIL

I, Arthur P. Beever, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on April 26, 2021, with counsel’s consent, a copy of the Brief in
Opposition in the above-entitled case was served by electronic mail upon:
Mark E. Cutler
Attorney at Law
Post Office Box 172
Cool, CA 95614-0172
Email: cutler@mac.com
530 885-7718
Counsel for Petitioner
John R. Travis
K-57201
I further certify that all parties required to be served have been served.
s/ Arthur P. Beever
ARTHUR P. BEEVER, Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
Telephone: (415) 510-3761
Counsel for Respondent

